No. 20-1019

IN THE

is> tate £

Supreme Court of tfjr
JADE THOMPSON,

Petitioner ,
v.

MARIETTA EDUCATION ASSOCIATION, ET AL.,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeal for the Sixth Circuit

CERTIFICATE OF SERVICE
I, P. CASEY PITTS, a member of the Bar of this
Court, hereby certify per Supreme Court Rule 29.5(b)
and the parties’ agreement to accept electronic ser vice , that on April 30, 2021, a true and correct
electronic copy of the Brief In Opposition of Respondent Marietta Education Association in Thompson v .
Marietta Education Association, et al ., No. 20-1019,
was sent, via electronic mail, to the following e - mail
addresses:
Andrew Michael Grossman
Baker & Hostetler LLP
1050 Connecticut Avenue , N.W.
Suite 1100
Washington, DC 20036
agrossman@bakerlaw.com

Counsel for Petitioner Jade Thompson

2

Nicole Marie Donovsky
Bricker & Eckler LLP
100 S. Third Street
Columbus, OH 43215
ndonovsky@bricker.com
Counsel for Respondent
Marietta City School District Board of Education

I further certify that all parties required to be
served have been served.
Dated: April 30, 2021

P. Casby Pitts
ALTSHULER BERZON LLP
177 Post Street, Suite 300
San Francisco, CA 94108
(415) 421- 7151
cpitts@altber.com

Counsel for Respondent
Marietta Education Association

